HHS/OIG, Audit -"Pension Segmentation Review at Highmark, Inc. of Pennsylvania,"(A-07-04-03050)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Pension Segmentation Review at Highmark, Inc. of Pennsylvania," (A-07-04-03050)
January 21, 2005
Complete
Text of Report is available in PDF format (835 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of our review were to determine if Highmark: (1) identified Medicare pension assets as of December 31,
1997, and (2) complied with the pension segmentation requirements of the Medicare contract while updating Medicare segment
assets from December 31, 1997, to January 1, 2002.  We found that Highmark did not comply with the pension segmentation
requirements of the Medicare contract while updating Medicare segment assets from December 31, 1997, to January 1, 2002.  Highmark
overstated Medicare Part A segment pension assets by $2,663,777 and understated Medicare Part B by $2,394,501.  We
recommend that Highmark:  (1) decrease Medicare Part A segment pension assets by $2,663,777 and recognize segment
assets of $10,808,230, increase Medicare Part B segment pension assets by $2,394,501 and recognize segment assets of $41,701,031
as of January 1, 2002, and implement controls to ensure that Medicare segments are identified in accordance with the Medicare
contract and updated in accordance with CAS 412 and 413.  Highmark disagreed with our report and contends that: (1)
OIG assigned certain participants to incorrect segments,  (2) most of the audit findings were due to the cumulative
effect of the prior audit findings for Medicare Part A and Medicare Part B, and (3) most of OIGs findings concerning the
understatement of Medicare Part B segment assets were due to a retroactive application of a recent decision handed down
by the U.S. Court of Appeals concerning reassignable pension costs.